C@QCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No, 19-32
GORDON SCOTT STROH,
Petitioner,

v.
SATURNA CAPITAL CORPORATION,
NICHOLAS KAISER AND JANE CARTEN,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
ON BEHALF OF PROJECT ON GOVERNMENT OVERSIGHT, INC. IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4420 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of August, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LE Qudraw- ,
My Commission Expires Nov 24, 2020 ’

Notary Public Affiant 38388

 

 
